Department of Health and Human Services
                   OFFICE OF
              INSPECTOR GENERAL




        REVIEW OF OUTPATIENT
         SURGERIES BILLED BY
          TULARE REGIONAL
           MEDICAL CENTER


  Inquiries about this report may be addressed to the Office of Public Affairs at
                           Public.Affairs@oig.hhs.gov.




                                                   Lori A. Ahlstrand
                                               Regional Inspector General
                                                   for Audit Services

                                                     September 2014
                                                      A-09-13-02052
                        Office of Inspector General
                                         https://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at https://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                       EXECUTIVE SUMMARY

 Tulare Regional Medical Center did not comply with Medicare requirements for billing
 outpatient surgeries, resulting in overpayments of approximately $179,000 over 2 years.


WHY WE DID THIS REVIEW

For calendar year (CY) 2012, Medicare paid hospitals $148 billion, which represented 43 percent
of all fee-for-service payments; therefore, the Office of Inspector General must provide continual
and adequate oversight of Medicare payments to hospitals. Using computer matching, data
mining, and data analysis techniques, we identified hospital claims for outpatient surgeries that
were at risk for noncompliance with Medicare billing requirements because they were billed with
units of service greater than one, indicating that the surgeries may have been performed multiple
times.

Our objective was to determine whether Tulare Regional Medical Center (the Hospital) complied
with Medicare requirements for billing outpatient surgeries on selected claims.

BACKGROUND

The Centers for Medicare & Medicaid Services pays for hospital outpatient services on a
rate-per-service basis that varies according to the assigned ambulatory payment classification.
The Medicare Claims Processing Manual (the Manual) requires providers to complete claims
accurately so that Medicare contractors may process them correctly and promptly (Pub. No.
100-04, chapter 1, § 80.3.2.2). In addition, the Manual states: “The definition of service units …
is the number of times the service or procedure being reported was performed” (chapter 4,
§ 20.4).

The Hospital is an acute-care hospital located in Tulare, California. Medicare paid the Hospital
approximately $8.4 million for 45,401 outpatient claims for services provided to beneficiaries
during CYs 2011 and 2012.

Our audit covered $192,093 in Medicare payments to the Hospital for 10 outpatient claims for
surgeries billed with units greater than 1. Initially, we judgmentally selected nine claims as
potentially at risk for billing errors. On the basis of our finding, the Hospital identified an
additional claim for our review. All 10 claims had dates of service in CY 2011 or 2012.

WHAT WE FOUND

The Hospital did not comply with Medicare billing requirements for all 10 of the outpatient
surgery claims that we reviewed, resulting in overpayments of $178,647. Specifically, the
Hospital billed Medicare with an incorrect number of units for cataract and hip surgeries. These
errors occurred because the Hospital did not have adequate controls to prevent the incorrect
billing of Medicare for service units on outpatient surgery claims.




Outpatient Surgeries Billed by Tulare Regional Medical Center (A-09-13-02052)                      i
WHAT WE RECOMMEND

We recommend that the Hospital:

    •    refund to the Medicare contractor $178,647 in overpayments for the 10 incorrectly billed
         outpatient claims and

    •    strengthen controls to ensure full compliance with Medicare requirements for billing
         outpatient surgeries.

HOSPITAL COMMENTS

In written comments on our draft report, the Hospital concurred with our recommendations and
provided information on actions that it had taken to address our recommendations.




Outpatient Surgeries Billed by Tulare Regional Medical Center (A-09-13-02052)                   ii
                                                     TABLE OF CONTENTS

INTRODUCTION .............................................................................................................................1

           Why We Did This Review .....................................................................................................1

           Objective ................................................................................................................................1

           Background ............................................................................................................................1
                 The Medicare Program ..............................................................................................1
                 Hospital Outpatient Prospective Payment System .....................................................1
                 Medicare Requirements for Hospital Claims and Payments .....................................1
                 Tulare Regional Medical Center ................................................................................2

           How We Conducted This Review..........................................................................................2

FINDING ...........................................................................................................................................2

           The Hospital Billed the Incorrect Number of Units for Outpatient Surgeries .......................3

           The Hospital Did Not Have Adequate Controls To Prevent Incorrect Billing ......................3

RECOMMENDATIONS ...................................................................................................................3

HOSPITAL COMMENTS ................................................................................................................4

APPENDIXES

           A: AUDIT SCOPE AND METHODOLOGY ......................................................................5

           B: HOSPITAL COMMENTS ...............................................................................................7




Outpatient Surgeries Billed by Tulare Regional Medical Center (A-09-13-02052)                                                                    iii
                                             INTRODUCTION

WHY WE DID THIS REVIEW

For calendar year (CY) 2012, Medicare paid hospitals $148 billion, which represented 43 percent
of all fee-for-service payments; therefore, the Office of Inspector General must provide continual
and adequate oversight of Medicare payments to hospitals. Using computer matching, data
mining, and data analysis techniques, we identified hospital claims for outpatient surgeries that
were at risk for noncompliance with Medicare billing requirements because they were billed with
units of service greater than one, indicating that the surgeries may have been performed multiple
times.

OBJECTIVE

Our objective was to determine whether Tulare Regional Medical Center (the Hospital) complied
with Medicare requirements for billing outpatient surgeries on selected claims.

BACKGROUND

The Medicare Program

Medicare Part B provides supplementary medical insurance for medical and other health
services, including coverage of hospital outpatient services. The Centers for Medicare &
Medicaid Services (CMS) administers the Medicare program.

CMS contracts with Medicare contractors to, among other things, process and pay claims
submitted by hospitals.

Hospital Outpatient Prospective Payment System

CMS implemented an outpatient prospective payment system (OPPS), which is effective for
services furnished on or after August 1, 2000, for hospital outpatient services. Under the OPPS,
Medicare pays for hospital outpatient services on a rate-per-service basis that varies according to
the assigned ambulatory payment classification (APC). CMS uses Healthcare Common
Procedure Coding System (HCPCS) codes and descriptors to identify and group the services
within each APC group. 1 All services and items within an APC group are comparable clinically
and require comparable resources.

Medicare Requirements for Hospital Claims and Payments

Medicare payments may not be made for items or services that “are not reasonable and necessary
for the diagnosis or treatment of illness or injury or to improve the functioning of a malformed
body member” (the Social Security Act (the Act), § 1862(a)(1)(A)). In addition, payments may
not be made to any provider of services or other person without information necessary to
determine the amount due the provider (the Act, § 1833(e)).

1
 HCPCS codes are used throughout the health care industry to standardize coding for medical procedures, services,
products, and supplies.


Outpatient Surgeries Billed by Tulare Regional Medical Center (A-09-13-02052)                                       1
Federal regulations state that the provider must furnish to the Medicare contractor sufficient
information to determine whether payment is due and the amount of the payment (42 CFR
§ 424.5(a)(6)).

The Medicare Claims Processing Manual (the Manual) requires providers to complete claims
accurately so that Medicare contractors may process them correctly and promptly (Pub. No.
100-04, chapter 1, § 80.3.2.2). The Manual states that providers must use HCPCS codes for
most outpatient services (chapter 23, § 20.3).

Tulare Regional Medical Center

The Hospital is an acute-care hospital located in Tulare, California. Medicare paid the Hospital
approximately $8.4 million for 45,401 outpatient claims for services provided to beneficiaries
during CYs 2011 and 2012.

HOW WE CONDUCTED THIS REVIEW

Our audit covered $192,093 in Medicare payments to the Hospital for 10 outpatient claims for
surgeries billed with units greater than 1. Initially, we judgmentally selected nine claims as
potentially at risk for billing errors. On the basis of our finding, the Hospital identified an
additional claim for our review. All 10 claims had dates of service in CY 2011 or 2012.

We limited our review to the line items on the 10 claims for which the Hospital billed outpatient
surgeries. We evaluated compliance with selected billing requirements but did not use medical
review to determine whether the services were medically necessary. This report does not
represent an overall assessment of all claims submitted by the Hospital for Medicare
reimbursement.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.

See Appendix A for the details of our audit scope and methodology.

                                                 FINDING

The Hospital did not comply with Medicare billing requirements for all 10 of the outpatient
surgery claims that we reviewed, resulting in overpayments of $178,647. Specifically, the
Hospital billed Medicare with an incorrect number of units for cataract and hip surgeries. These
errors occurred because the Hospital did not have adequate controls to prevent the incorrect
billing of Medicare for service units on outpatient surgery claims.




Outpatient Surgeries Billed by Tulare Regional Medical Center (A-09-13-02052)                       2
THE HOSPITAL BILLED THE INCORRECT NUMBER OF UNITS FOR
OUTPATIENT SURGERIES

Medicare payments may not be made to any provider of services or other person without
information necessary to determine the amount due the provider (the Act, § 1833(e)). The
Manual states: “In order to be processed correctly and promptly, a bill must be completed
accurately” (chapter 1, § 80.3.2.2). In addition, the Manual states: “The definition of service
units … is the number of times the service or procedure being reported was performed”
(chapter 4, § 20.4).

For all 10 claims that we reviewed, the Hospital billed Medicare with an incorrect number of
units for outpatient surgeries:

     •   For nine claims, the Hospital billed cataract surgeries with multiple units per beneficiary
         visit.

     •   For one claim, the Hospital billed a hip surgery with multiple units for a beneficiary visit.

However, in each case, only one unit of service was performed. As a result of these errors, the
Hospital received overpayments of $178,647. 2

THE HOSPITAL DID NOT HAVE ADEQUATE CONTROLS TO PREVENT
INCORRECT BILLING

The billing errors occurred because the Hospital did not have adequate controls to prevent the
incorrect billing of Medicare for service units on outpatient surgery claims. Specifically, the
Hospital’s claims processing system lacked edits to identify outpatient surgeries billed with the
incorrect number of units. As a result, the Hospital submitted these claims to Medicare for
processing without review and revision by the billing department.

                                         RECOMMENDATIONS

We recommend that the Hospital:

     •   refund to the Medicare contractor $178,647 in overpayments for the 10 incorrectly billed
         outpatient claims and

     •   strengthen controls to ensure full compliance with Medicare requirements for billing
         outpatient surgeries.




2
  Initially, we judgmentally selected nine claims for review and identified overpayments of $164,555. On the basis
of our finding, the Hospital identified an additional claim for our review. We reviewed the additional claim and
identified an overpayment of $14,092.


Outpatient Surgeries Billed by Tulare Regional Medical Center (A-09-13-02052)                                        3
                                       HOSPITAL COMMENTS

In written comments on our draft report, the Hospital concurred with our recommendations and
provided information on actions that it had taken to address our recommendations. The
Hospital’s comments are included in their entirety as Appendix B.




Outpatient Surgeries Billed by Tulare Regional Medical Center (A-09-13-02052)                  4
                    APPENDIX A: AUDIT SCOPE AND METHODOLOGY

SCOPE

Our audit covered $192,093 in Medicare payments to the Hospital for 10 outpatient claims for
surgeries billed with units greater than 1. Initially, we judgmentally selected nine claims as
potentially at risk for billing errors. On the basis of our finding, the Hospital identified an
additional claim for our review. All 10 claims had dates of service in CY 2011 or 2012.

We limited our review to the line items on the 10 claims for which the Hospital billed outpatient
surgeries. We evaluated compliance with selected billing requirements but did not use medical
review to determine whether the services were medically necessary.

We limited our review of the Hospital’s internal controls to those applicable to the line items for
outpatient surgeries because our objective did not require an understanding of all internal
controls over the submission and processing of claims. We established reasonable assurance of
the authenticity and accuracy of the data obtained from CMS’s National Claims History file, but
we did not assess the completeness of the file.

This report does not represent an overall assessment of all claims submitted by the Hospital for
Medicare reimbursement.

We conducted our fieldwork from February 2013 to January 2014.

METHODOLOGY

To accomplish our objective, we:

    •   reviewed applicable Federal laws, regulations, and guidance;

    •   extracted the Hospital’s outpatient paid claim data from CMS’s National Claims History
        file for CYs 2011 and 2012;

    •   used computer matching, data mining, and data analysis techniques to identify claims
        potentially at risk for noncompliance with selected Medicare billing requirements;

    •   judgmentally selected for detailed review 10 outpatient claims for surgeries billed with
        units greater than 1, consisting of 9 claims that we initially selected as potentially at risk
        for billing errors and 1 claim that the Hospital identified on the basis of our finding;

    •   reviewed available data from CMS’s Common Working File for the selected claims to
        determine whether the claims had been canceled or adjusted;

    •   reviewed the itemized bills and medical record documentation provided by the Hospital
        to support the selected claims;



Outpatient Surgeries Billed by Tulare Regional Medical Center (A-09-13-02052)                            5
    •   requested that the Hospital conduct its own review of the selected claims to determine
        whether the services were billed correctly;

    •   reviewed the Hospital’s procedures for assigning HCPCS codes and submitting Medicare
        claims;

    •   discussed the incorrectly billed claims with Hospital officials to determine the underlying
        causes of noncompliance with Medicare requirements;

    •   calculated the correct payments for all 10 claims; and

    •   discussed the results of our review with Hospital officials.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.




Outpatient Surgeries Billed by Tulare Regional Medical Center (A-09-13-02052)                     6
                                       APPENDIX B: HOSPITAL COMMENTS 




                                                                                    ...........1 

                                                                                       ....······
                                                                                     .....
                                                                                    .......  ······
                                                                                               ···· 

                                                                                      ..........

                                                                                     ······   ·····
                                                                                     :::: :: :: :::1 Tulare Regional
                                                                                    .......

                                                                                    :::::• •u..e"Y
                                                                                    ~~·······            Med ical Center
                                                                                                         869 N. Cherry St. ·Tulare · CA •93274
            July 24, 2014                                                                                559.688.0821 •www.TulareRegional.org




            Lori A Ahlstrand
            Regional Inspector General for Audit Services
            Department of Health and Human Services
            Office of Audit Services, Region IX
            90 - y!h Street, Suite 3-650
            San Francisco, CA 94103

            Report Number: A-09-13-02052

            Dear Ms. Ahlstrand:


                    I am in receipt of the U.S. Department of Health and Human Services, Office of Inspector General
            (OIG), draft report entitled Review of Outpatient Surgeries Billed by Tulare Regional Medical Center_

                    On behalf of Tulare Regional Medical Center, I want to thank you for the opportunity to respond to
            the recommendations on the above-referenced draft report.

            A.             History


                    On February 1, 2011 , Tulare converted from one hospital-wide computer system to another
            system. It was confirmed that the previous computer system had an edit that allowed it to adjust the
            revenue code of 360 from minutes to units of one (1 ). However, when the computer system was
            converted, the edit did not transfer to the new system; therefore, resulting in the charge for multiple units.

                           On April 17, 2011 , TRMC outsourced the Business Office to a third party. On December 21 ,
            2011, the Business Department identified an error in the computerized billing system; claims with a
            revenue code of 360 were not automatically being billed in units. The Business Department contacted
            their information services provider, who created an automatic edit; it was believed the issue was
            corrected. However, due to the conversion of TRMC's computer system, the edit did not translate.

                     On February 15, 2013 and receipt of notification by the OIG Audit Services of the potential billing
            errors, Tulare ran an audit report for revenue code of 360 for the years 2010 through 2012 for any units
            greater than one (1). Ten (1 0) accounts were identified, nine (9) of which had already been identified by
            the OIG auditing department and one (1 ) additional account identified through Tulare's audit report.




            Board of Directors:
            Sherrie Bell                    Parmod Kumar, MD        RichardTorrez                     Rosalinda Avitia                             Laura Gadke
            Chairwoman and Prcsldent        \Ace Chalrfnan          Treasurer                        Secretary                                     Board Member


                                                                                    Tulare Re<jonal Med.cil   Cet~tet Is~   DIAsiOnoiTulare Loa! He;~kh Carc O.st(<l




Outpatient Surgeries Billed by Tulare Regional Medical Center (A-09-13-02052)                                                                                          7
                                                                                        .............
                                                                                         :: :::::::::1·

                                                                                          .....····· -r. I R . I
                                                                                         ······
                                                                                         miii ·····
                                                                                                d!a 1U are eg1o na
                                                                                        !illiiiiiia            M edical Center
                                                                                                               869 N. Cherry St ·Tulare · CA • 93274
                                                                                                               559.688.0821 · www.TulareReg ional.org
             B.             #1 OIG Recommendation

                            Tulare Regiona l Medical Center concurs w ith the OIG recommendation.

                     Corrective Action: On March 20, 2013, the nine (9) accounts identified by your office were
             adjusted to reflect the correct service unit of one ( 1) and the c laim resub mitted. On March 22, 2013, the
             additional one (1) accoun t was adjusted to reflect the correct service unit of one (1) and the claim was
             resu bmitted. Thereafter, T ulare promptly submitted th e revised UB-04 claim forms and adjusted
             remittance forms to the OIG Aud it Services on all corrected claims.

                    The overpayment for the 10 incorrectly billed outpatient claims was corrected and the
             overpayment of $178,647 has been taken back by Medicare.


             C.             #2 OIG Recommendation

                            Tulare Regional Medical Center concurs with the OIG recommendation.

                       Corrective Action: On March 18, 2013, T ulare Regional Medical Center edited its revenue center
             file to accurately capture the surgical procedures as units of one (1) instead of by minutes. A weekly
             report was thereafter generated on all surgical cases. Each claim was reviewed to ensure they were
             accu rately b illed as units of one (1). T he weekly review was conducted for more than 8 weeks, and until
             the organization was confident the issue had been fu lly resolved. No f urther inaccurate claims have been
             identified.

                            Please do not hesitate to contact me if you have any questions.

                                                                                  Sincerely,


                                                                                  ~~
                                                                              Julie Gresham




             Board of Dlreclots:
             Sherrie Bell                    Parmod Kumar, MD         Richard Torrez                       Rosalinda Avitia                             Laura Gadke
             Chairwoman and President        Vice Chairman            Treasurer                            Secrelary                                    Board Member

                                                                                         lulare Reglooal Medical Center I!> a Division of Tulare local Health Care OistriCl




Outpatient Surgeries Billed by Tulare R egional M edical Center (A-09-1 3-02052)                                                                                              8
